                                                                               Federal Register / Vol. 79, No. 133 / Friday, July 11, 2014 / Notices                                            40115

                                                 1. Electronically. You may submit                     general, OIG may seek to exclude any                  DEPARTMENT OF HEALTH AND
                                              electronic comments on specific                          person who violates the Federal False                 HUMAN SERVICES
                                              recommendations and proposals                            Claims Act, 31 U.S.C. 3729–3733, or the
                                              through the Federal eRulemaking Portal                   Civil Monetary Penalties Law, section                 Office of Inspector General
                                              at http://www.regulations.gov.                           1128A of the Act. For example,
                                                 2. By regular, express, or overnight                  submitting or causing the submission of               Special Fraud Alert: Laboratory
                                              mail. You may send written comments                      false or fraudulent claims or soliciting              Payments to Referring Physicians
                                              to the following address: Patrice Drew,                  or paying kickbacks in violation of the               AGENCY: Office of Inspector General
                                              Office of Inspector General, Department                  Federal Anti-Kickback Statute, section                (OIG), HHS.
                                              of Health and Human Services,                            1128B of the Act, can result in exclusion             ACTION: Notice.
                                              Attention: OIG–1271–N, Room 5296,                        from participation in Medicare,
                                              Cohen Building, 330 Independence                         Medicaid, and all other Federal health                SUMMARY:   This Special Fraud Alert
                                              Avenue SW., Washington, DC 20201.                        care programs. On October 24, 1997,                   addresses compensation paid by
                                              Please allow sufficient time for mailed                  OIG published a proposed policy                       laboratories to referring physicians and
                                              comments to be received before the                       statement in the Federal Register (62 FR              physician group practices (collectively,
                                              close of the comment period.                             55410) in the form of non-binding                     physicians) for blood specimen
                                                 3. By hand or courier. If you prefer,                 criteria to be used by OIG in assessing               collection, processing, and packaging,
                                              you may deliver, by hand or courier,                     whether to impose a permissive                        and for submitting patient data to a
                                              your written comments before the close                   exclusion under section 1128(b)(7) of                 registry or database. OIG has issued a
                                              of the comment period to Patrice Drew,                   the Act. On December 24, 1997, OIG                    number of guidance documents and
                                              Office of Inspector General, Department                  published the final policy statement in               advisory opinions addressing the
                                              of Health and Human Services, Cohen                      the Federal Register (62 FR 67392).                   general subject of remuneration offered
                                              Building, 330 Independence Avenue                           Since 1997, OIG has used these                     and paid by laboratories to referring
                                              SW., Washington, DC 20201. Because                       criteria to evaluate whether to impose a              physicians, including the 1994 Special
                                              access to the interior of the Cohen                      permissive exclusion under section                    Fraud Alert on Arrangements for the
                                              Building is not readily available to                     1128(b)(7) of the Act or release this                 Provision of Clinical Laboratory
                                              persons without Federal Government                       authority in exchange for the                         Services, the OIG Compliance Program
                                              identification, commenters are                           defendant’s entering into an Integrity                Guidance for Clinical Laboratories, and
                                              encouraged to schedule their delivery                    Agreement with OIG. On the basis of                   Advisory Opinion 05–08. In these and
                                              with one of our staff members at (202)                   our experience evaluating permissive                  other documents, we have repeatedly
                                              619–1368.                                                exclusion in False Claims Act and                     emphasized that providing free or
                                                 For information on viewing public                     administrative cases over the past 17                 below-market goods or services to a
                                              comments, please see the                                 years, we are considering revising the                physician who is a source of referrals,
                                              Supplementary Information section.                       existing criteria. We believe revised                 or paying such a physician more than
                                                                                                       criteria may help the provider                        fair market value for his or her services,
                                              FOR FURTHER INFORMATION CONTACT:
                                                                                                       community understand how OIG                          could constitute illegal remuneration
                                              Patrice Drew, Department of Health and
                                                                                                       exercises its discretion in cases under               under the anti-kickback statute. This
                                              Human Services, Office of Inspector
                                                                                                       section 1128(b)(7) of the Act. We also                Special Fraud Alert supplements these
                                              General, Office of External Affairs, at
                                                                                                       believe that updated guidance could                   prior guidance documents and advisory
                                              (202) 619–1368.
                                                                                                       better reflect the state of the health care           opinions and describes two specific
                                              SUPPLEMENTARY INFORMATION:                                                                                     trends OIG has identified involving
                                                                                                       industry today, including the changes in
                                                 Inspection of Public Comments: All                    legal requirements and the emergence of               transfers of value from laboratories to
                                              comments received before the end of the                  the health care compliance industry.                  physicians that we believe present a
                                              comment period are available for                            In considering possible revisions to               substantial risk of fraud and abuse
                                              viewing by the public. All comments                      the criteria, we are soliciting comments,             under the anti-kickback statute.
                                              will be posted on http://www.                            recommendations, and other
                                              regulations.gov as soon as possible after                                                                      I. The Anti-Kickback Statute
                                                                                                       suggestions from concerned parties on
                                              the closing of the comment period.                       how best to revise the criteria to address               One purpose of the anti-kickback
                                              Comments received timely will also be                    relevant issues and to provide useful                 statute is to protect patients from
                                              available for public inspection as they                  guidance to the health care industry.                 inappropriate medical referrals or
                                              are received at Office of Inspector                      The issues we are considering include,                recommendations by health care
                                              General, Department of Health and                        but are not limited to: (1) Whether there             professionals who may be unduly
                                              Human Services, Cohen Building, 330                      should be differences in the criteria for             influenced by financial incentives.
                                              Independence Avenue SW.,                                 individuals and entities and (2) whether              Section 1128B(b) of the Social Security
                                              Washington, DC 20201, Monday                             and how to consider a defendant’s                     Act (the Act) makes it a criminal offense
                                              through Friday of each week from 10                      existing compliance program.                          to knowingly and willfully offer, pay,
                                              a.m. to 4 p.m. To schedule an                               After reviewing any timely submitted               solicit, or receive any remuneration to
                                              appointment to view public comments,                     comments, we will decide whether and                  induce, or in return for, referrals of
                                              phone (202) 619–1368.                                    how to revise the non-binding criteria                items or services reimbursable by a
                                                                                                       for use in evaluating exclusion under                 Federal health care program. When
                                              Background                                                                                                     remuneration is paid purposefully to
                                                                                                       1128(b)(7) of the Act where the
                                                Section 1128(b)(7) of the Social                       defendant has defrauded the Federal                   induce or reward referrals of items or
tkelley on DSK3SPTVN1PROD with NOTICES




                                              Security Act (Act) authorizes the                        health care programs.                                 services payable by a Federal health
                                              Secretary, and by delegation the                                                                               care program, the anti-kickback statute
                                              Inspector General, to exclude an                           Dated: June 7, 2014.                                is violated. By its terms, the statute
                                              individual or entity from participation                  Daniel R. Levinson,                                   ascribes criminal liability to parties on
                                              in the Federal health care programs for                  Inspector General.                                    both sides of an impermissible
                                              engaging in conduct described in                         [FR Doc. 2014–16222 Filed 7–10–14; 8:45 am]           ‘‘kickback’’ transaction. Violation of the
                                              sections 1128A and 1128B of the Act. In                  BILLING CODE 4150–04–P                                statute constitutes a felony punishable


                                         VerDate Mar<15>2010   20:23 Jul 10, 2014   Jkt 232001   PO 00000   Frm 00058   Fmt 4703   Sfmt 4703   E:\FR\FM\11JYN1.SGM   11JYN1
                                              40116                            Federal Register / Vol. 79, No. 133 / Friday, July 11, 2014 / Notices

                                              by a maximum fine of $25,000,                            This is because such transfers of value                 Processing Arrangements typically
                                              imprisonment up to 5 years, or both.                     may induce physicians to order tests                    involve payments from laboratories to
                                              Conviction will also lead to exclusion                   from a laboratory that provides them                    physicians for certain specified duties,
                                              from Federal health care programs,                       with remuneration, rather than the                      which may include collecting the blood
                                              including Medicare and Medicaid. OIG                     laboratory that provides the best, most                 specimens, centrifuging the specimens,
                                              may also initiate administrative                         clinically appropriate service. Such                    maintaining the specimens at a
                                              proceedings to exclude persons from the                  transfers of value also may induce                      particular temperature, and packaging
                                              Federal health care programs or to                       physicians to order more laboratory                     the specimens so that they are not
                                              impose civil money penalties for fraud,                  tests than are medically necessary,                     damaged in transport. Payments under
                                              kickbacks, and other prohibited                          particularly when the transfers of value                Specimen Processing Arrangements
                                              activities under sections 1128(b)(7) and                 are tied to, or take into account, the                  typically are made on a per-specimen or
                                              1128A(a)(7) of the Act.                                  volume or value of business generated                   per-patient-encounter basis and often
                                                                                                       by the physician. We are particularly                   are associated with expensive or
                                              II. Remuneration From Laboratories To
                                                                                                       concerned about these types of                          specialized tests.
                                              Referring Physicians
                                                                                                       arrangements because the choice of                         Medicare allows the person who
                                                 Arrangements between referring                        laboratory, as well as the decision to                  collects a specimen to bill Medicare for
                                              physicians and laboratories historically                 order laboratory tests, typically is made               a nominal specimen collection fee in
                                              have been subject to abuse and were the                  or strongly influenced by the physician,                certain circumstances, including times
                                              topic of one of the OIG’s earliest Special               with little or no input from patients.                  when the person draws a blood sample
                                              Fraud Alerts.1 In that Special Fraud                        Although physicians may order any                    through venipuncture (i.e., inserting
                                              Alert, we stated that, ‘‘[w]henever a                    tests they believe are appropriate to                   into a vein a needle with syringe or
                                              laboratory offers or gives to a source of                diagnose and treat their patients,                      vacuum tube to draw the specimen).6
                                              referrals anything of value not paid for                 Medicare will pay for laboratory tests                  Medicare allows such billing only
                                              at fair market value, the inference may                  only if they meet Medicare coverage                     when: (1) It is the accepted and
                                              be made that the thing of value is                       criteria and are reasonable and                         prevailing practice among physicians in
                                              offered to induce the referral of                        necessary.3 Moreover, claims that                       the locality to make separate charges for
                                              business.’’ More generally, we have, on                  include items or services resulting from                drawing or collecting a specimen and
                                              various occasions, repeated our position                 a violation of the anti-kickback statute                (2) it is the customary practice of the
                                              that arrangements providing free or                      are not payable by Medicare and may                     physician performing such services to
                                              below-market goods or services to actual                 constitute false claims under the False                 bill separate charges for drawing or
                                              or potential referral sources are suspect                Claims Act, even if the items or services               collecting the specimen.7 Only one
                                              and may violate the anti-kickback                        are medically necessary.4 OIG                           collection fee is allowed for each type
                                              statute, depending on the                                recognizes that the lawfulness of any                   of specimen for each patient encounter,
                                              circumstances.2                                          particular arrangement under the anti-
                                                 Likewise, when a laboratory pays a                                                                            regardless of the number of specimens
                                                                                                       kickback statute depends on the intent                  drawn.8 Physicians who satisfy the
                                              physician more than fair market value                    of the parties. Such intent may be
                                              for the physician’s services or for                                                                              specimen collection fee criteria and
                                                                                                       evidenced by the arrangement’s                          choose to bill Medicare for the specimen
                                              services the laboratory does not actually                characteristics, including its legal
                                              need or for which the physician is                                                                               collection must use Current Procedural
                                                                                                       structure, its operational safeguards, and              Terminology (CPT) Code 36415,
                                              otherwise compensated, the anti-                         the actual conduct of the parties to the
                                              kickback statute is implicated. Such                                                                             ‘‘Routine venipuncture—Collection of
                                                                                                       arrangement. Nonetheless, we believe                    venous blood by venipuncture.’’ 9 10
                                              payments are suspect under the anti-                     the following types of arrangements
                                              kickback statute because of the                          between laboratories and physicians are                 provide free or below-market point of care urine
                                              implication that one purpose of the                      suspect under the anti-kickback statute.                testing cups to health care providers who use the
                                              payments is to induce the physician’s                                                                            cups to perform billable in-office testing.
                                              Federal health care program referrals.                   A. Blood-Specimen Collection,                              6 Section 1833(h)(3) of the Act; Medicare Claims

                                              OIG also historically has been                           Processing, and Packaging                               Processing Manual, CMS Pub. 100–04, Chapter 16,
                                              concerned with arrangements in which                     Arrangements                                            section 60.1.
                                                                                                                                                                  7 Medicare Claims Processing Manual, CMS Pub.
                                              the amounts paid to a referral source                      OIG has become aware of                               100–04, Chapter 16, section 60.1.1.
                                              take into account the volume or value of                 arrangements under which clinical                          8 Medicare Claims Processing Manual, CMS Pub.
                                              business generated by the referral                       laboratories are providing remuneration                 100–04, Chapter 16, section 60.1.
                                              source.                                                  to physicians to collect, process, and                     9 The five character codes and descriptions

                                                 Arrangements in which laboratories                    package patients’ specimens. This                       included in this document are obtained from
                                              provide free or below-market goods or                                                                            Current Procedural Terminology (CPT®), copyright
                                                                                                       Special Fraud Alert addresses                           2014 by the American Medical Association (AMA).
                                              services to physicians or make                           arrangements under which laboratories                   CPT is developed by the AMA as a listing of
                                              payments to physicians that are not                      pay physicians, either directly or                      descriptive terms and five character identifying
                                              commercially reasonable in the absence                   indirectly (such as through an                          codes and modifiers for reporting medical services
                                              of Federal health care program referrals                                                                         and procedures. Any use of CPT outside of this
                                                                                                       arrangement with a marketing or other                   document should refer to the most current version
                                              potentially raise four major concerns                    agent) to collect, process, and package                 of the Current Procedural Terminology available
                                              typically associated with kickbacks—                     patients’ blood specimens (Specimen                     from AMA. Applicable FARS/DFARS apply.
                                              corruption of medical judgment,                          Processing Arrangements).5 Specimen
                                                                                                                                                                  10 CPT code 36415 is included on the clinical

                                              overutilization, increased costs to the                                                                          laboratory fee schedule. As of the date of issuance
                                                                                                                                                               of this Special Fraud Alert, Medicare pays a
tkelley on DSK3SPTVN1PROD with NOTICES




                                              Federal health care programs and                              3 Section
                                                                                                                   1862(a)(1)(A) of the Act.                   specimen collection fee of $5 for samples collected
                                              beneficiaries, and unfair competition.                        4 31
                                                                                                             U.S.C. 3729 et seq.                               from individuals in skilled nursing facilities and by
                                                                                                         5 The same principles described in this Special       laboratories on behalf of home health agencies and
                                                1 Special Fraud Alert: Arrangements for the            Fraud Alert apply to arrangements that are similar      a specimen collection fee of $3 for all other
                                              Provision of Clinical Laboratory Services (Oct.          or analogous to Specimen Processing Arrangements,       samples. See, e.g., Clinical Laboratory Fee
                                              1994), reprinted at 59 FR 65,372, 65,377 (Dec. 19,       including arrangements under which clinical             Schedule—January 2014 Release, available at
                                              1994).                                                   laboratories pay physicians to collect and package      http://www.cms.gov/Medicare/Medicare-Fee-for-
                                                2 See, e.g., Advisory Opinion 11–07, p. 7.             patients’ buccal swabs or urine specimens or            Service-Payment/ClinicalLabFeeSched/



                                         VerDate Mar<15>2010   22:04 Jul 10, 2014   Jkt 232001   PO 00000     Frm 00059   Fmt 4703   Sfmt 4703   E:\FR\FM\11JYN1.SGM   11JYN1
                                                                               Federal Register / Vol. 79, No. 133 / Friday, July 11, 2014 / Notices                                            40117

                                                 Medicare reimburses physicians for                      When determining the fair market                    disguising remuneration for Federal
                                              processing and packaging specimens for                   value of a physician’s services, a clinical           health care program business through
                                              transport to a clinical laboratory through               laboratory should consider whether the                the payment of amounts purportedly
                                              a bundled payment.11 Physicians who                      services for which it may compensate                  related to non-Federal health care
                                              wish to report the work involved in                      the physician have been, or may be,                   program business. Because physicians
                                              preparing a specimen to send to a                        paid for, including through a bundled                 typically wish to minimize the number
                                              laboratory may use CPT code 99000,                       payment, by Medicare. Additionally, the               of laboratories to which they refer for
                                              ‘‘Handling and/or conveyance of                          laboratory should consider whether                    reasons of convenience and
                                              specimen for transfer from the office to                 payment is appropriate at all; if the                 administrative efficiency, Specimen
                                              a laboratory.’’ 12 CPT code 99000 is                     services for which the laboratory                     Processing Arrangements that carve out
                                              intended to reflect the work involved to                 intends to compensate the physician are               Federal health care program business
                                              prepare a specimen prior to sending it                   paid for by a third party through other               may nevertheless be intended to
                                              to a laboratory, including centrifuging a                means, such as payments intended to                   influence physicians’ referrals of
                                              specimen, separating serum, labeling                     reimburse the physician for overhead                  Federal health care program business to
                                              tubes, packing the specimens for                         expenses, any payment by the                          the offering laboratories.
                                              transport, filling out laboratory forms,                 laboratory to the physician may                         Finally, because the anti-kickback
                                              and supplying necessary insurance                        constitute double payment for the                     statute ascribes criminal liability to
                                              information and other documentation.13                   physician’s services and, consequently,               parties on both sides of an
                                                 The anti-kickback statute is                          provide evidence of unlawful intent.                  impermissible ‘‘kickback’’ arrangement,
                                              implicated when a clinical laboratory                      Characteristics of a Specimen                       physicians who enter into Specimen
                                              pays a physician for services. Whether                   Processing Arrangement that may be                    Processing Arrangements with
                                              an actual violation of the statute occurs                evidence of such unlawful purpose                     laboratories also may be at risk under
                                              depends on the intent of the parties—                    include, but are not limited to, the                  the statute.
                                              the anti-kickback statute prohibits the                  following:                                            B. Registry Payments
                                              knowing and willful payment of such                        • Payment exceeds fair market value
                                              amounts if even one purpose of the                       for services actually rendered by the                    OIG has become aware of
                                              payment is to induce or reward referrals                 party receiving the payment.                          arrangements under which clinical
                                              of Federal health care program business.                   • Payment is for services for which                 laboratories are establishing,
                                              This is true regardless of whether the                   payment is also made by a third party,                coordinating, or maintaining databases,
                                              payment is fair market value for services                such as Medicare.                                     either directly or through an agent,
                                              rendered. The probability that a                           • Payment is made directly to the                   purportedly to collect data on the
                                              payment is for an illegitimate purpose is                ordering physician rather than to the                 demographics, presentation, diagnosis,
                                              increased, however, if a payment                         ordering physician’s group practice,                  treatment, outcomes, or other attributes
                                              exceeds fair market value or if it is for                which may bear the cost of collecting                 of patients who have undergone, or who
                                              a service for which the physician is paid                and processing the specimen.                          may undergo, certain tests performed by
                                              by a third party, including Medicare.                      • Payment is made on a per-specimen                 the offering laboratories. Typically these
                                                                                                       basis for more than one specimen                      are specialized and expensive tests paid
                                              clinlab.html; specifically                               collected during a single patient                     for by Federal health care programs.
                                              CLAB2014.EffJan1.Full.xlsx (the 2014 Clinical            encounter or on a per-test, per-patient,              This Special Fraud Alert addresses such
                                              Diagnostic Laboratory Fee Schedule), available at        or other basis that takes into account the            ‘‘Registries’’ or ‘‘Registry
                                              http://www.cms.gov/apps/ama/license.asp?file=/
                                              ClinicalLabFeeSched/downloads/14CLAB.zip; and            volume or value of referrals.                         Arrangements,’’ whether they are
                                              Protecting Access to Medicare Act of 2014, Public          • Payment is offered on the condition               referred to as ‘‘registries’’ or
                                              Law 113–93, § 216(a), 128 Stat. 1040 and 1053–1059       that the physician order either a                     ‘‘observational outcomes databases’’ or
                                              (to be codified at 42 U.S.C. 1395m–1(b)(5)) (2014).      specified volume or type of tests or test             by other terminology.
                                                 11 Since 2003, CPT code 99000 has been listed as
                                                                                                       panel, especially if the panel includes                  Laboratories that participate in
                                              a ‘‘Bundled Code’’ in the Medicare Physician Fee
                                              Schedule (MPFS). See, e.g., Physician Fee                duplicative tests (e.g., two or more tests            Registry Arrangements often assert that
                                              Schedule—January 2014 Release, available at              performed using different                             they are intended to advance clinical
                                              http://www.cms.gov/Medicare/Medicare-Fee-for-            methodologies that are intended to                    research to promote treatment, to
                                              Service-Payment/PhysicianFeeSched/PFS-Relative-                                                                provide physicians with valuable
                                              Value-Files-Items/RVU14A.html; specifically
                                                                                                       provide the same clinical information),
                                              PPRRVU14_V1219.xlsx (the 2014 National                   or tests that otherwise are not                       clinical knowledge for patients with
                                              Physician Fee Schedule Relative Value File) and          reasonable and necessary or                           similar disease profiles, and to provide
                                              RVUPUF14.pdf (containing information on services         reimbursable.                                         other benefits to physicians or the
                                              covered by the MPFS, including fee schedule status         • Payment is made to the physician                  health care industry generally. Registry
                                              indicators), available at http://www.cms.gov/
                                              Medicare/Medicare-Fee-for-Service-Payment/               or the physician’s group practice,                    Arrangements may take various forms;
                                              PhysicianFeeSched/Downloads/RVU14A.zip. A                despite the fact that the specimen                    however, they typically involve
                                              ‘‘Bundled Code’’ means that ‘‘[p]ayment for covered      processing is actually being performed                payments from laboratories to
                                              services are always bundled into payment for other       by a phlebotomist placed in the                       physicians for certain specified duties,
                                              services not specified.’’ RVUPUF14.pdf,
                                              Attachment A.                                            physician’s office by the laboratory or a             including, by way of example only,
                                                 12 Even though physicians are not directly            third party.                                          submitting patient data to be
                                              reimbursed under this code, as they are with CPT           OIG’s concerns regarding Specimen                   incorporated into the Registry,
                                              code 36145, they may choose to report this CPT           Processing Arrangements are not abated                answering patient questions about the
                                              code so that the costs associated with the services      when those arrangements apply only to
                                              they perform are taken into account in CMS’s
                                                                                                                                                             Registry, and reviewing Registry reports.
tkelley on DSK3SPTVN1PROD with NOTICES




                                              calculation of the practice expense component of a       specimens collected from non-Federal                     Registry Arrangements may induce
                                              procedure’s relative value unit. See Overview,           health care program patients.                         physicians to order medically
                                              MPFS, available at https://www.cms.gov/apps/             Arrangements that ‘‘carve out’’ Federal               unnecessary or duplicative tests,
                                              physician-fee-schedule/overview.aspx.                    health care program beneficiaries or                  including duplicative tests performed
                                                 13 Coding Clarification: Handling and/or

                                              Conveyance of Specimen for Transfer from the
                                                                                                       business from otherwise questionable                  for the purpose of obtaining
                                              Physician’s Office to a Laboratory, CPT Assistant        arrangements implicate the anti-                      comparative data, and to order those
                                              (AMA), Oct. 1999, at 11.                                 kickback statute and may violate it by                tests from laboratories that offer Registry


                                         VerDate Mar<15>2010   20:23 Jul 10, 2014   Jkt 232001   PO 00000   Frm 00060   Fmt 4703   Sfmt 4703   E:\FR\FM\11JYN1.SGM   11JYN1
                                              40118                            Federal Register / Vol. 79, No. 133 / Friday, July 11, 2014 / Notices

                                              Arrangements in lieu of other,                           laboratory will bill (e.g., disease-related           Processing Arrangements, or similar
                                              potentially clinically superior,                         panels).                                              arrangements, contact the OIG Hotline
                                              laboratories. OIG recognizes that                          Other characteristics not listed above              at https://forms.oig.hhs.gov/
                                              whether any particular Registry                          may increase the risk of fraud and abuse              hotlineoperations/or by phone at 1–
                                              Arrangement violates the anti-kickback                   associated with a Registry Arrangement                800–447–8477 (1–800–HHS–TIPS).
                                              statute depends on the intent of the                     or provide evidence of unlawful intent.                 Dated: June 7, 2014.
                                              parties to the arrangement. Payments                     For example, the risk of fraud and abuse
                                                                                                                                                             Daniel R. Levinson,
                                              from a laboratory to a physician to                      would be particularly high if a
                                                                                                       laboratory were to pay, and collect data              Inspector General.
                                              compensate the physician for services
                                              related to data collection and reporting                 for its Registry from, only a subset of               [FR Doc. 2014–16219 Filed 7–10–14; 8:45 am]
                                              may be reasonable in certain limited                     physicians who were selected on the                   BILLING CODE P

                                              circumstances. However, the anti-                        basis of their prior or anticipated
                                              kickback statute prohibits the knowing                   referral volume, rather than their
                                              and willful payment of such                              specialty, sub-specialty, or other                    DEPARTMENT OF HEALTH AND
                                              compensation if even one purpose of the                  relevant attribute.                                   HUMAN SERVICES
                                              payments is to induce or reward                            The anti-kickback statute does not
                                                                                                       prohibit laboratories from engaging in,               National Institutes of Health
                                              referrals of Federal health care program
                                              business.                                                or paying compensation for, legitimate                Prospective Grant of Evaluation Option
                                                 Characteristics of a Registry                         research activities. However, claims that
                                                                                                                                                             Exclusive License: Development of
                                              Arrangement that may be evidence of                      Registries are intended to promote and
                                                                                                                                                             Granulysin Immunotherapy
                                              such unlawful purpose include, but are                   support clinical research and treatment
                                              not limited to, the following:                           are not sufficient to disprove unlawful               AGENCY:    National Institutes of Health,
                                                 • The laboratory requires,                            intent. Even legitimate actions taken to              HHS.
                                              encourages, or recommends that                           substantiate such claims, including, for
                                                                                                                                                             ACTION:   Notice.
                                              physicians who enter into Registry                       example, retaining an independent
                                              Arrangements perform the tests with a                    Institutional Review Board to develop                 SUMMARY:    This is notice, in accordance
                                              stated frequency (e.g., four times per                   study protocols and participation                     with 35 U.S.C. 209 and 37 CFR 404, that
                                              year) to be eligible to receive, or to not               guidelines, will not protect a Registry               the National Institutes of Health,
                                              receive a reduction in, compensation.                    Arrangement if one purpose of the                     Department of Health and Human
                                                 • The laboratory collects comparative                 arrangement is to induce or reward                    Services, is contemplating the grant of
                                              data for the Registry from, and bills for,               referrals. Furthermore, for the reasons               an exclusive evaluation option license
                                              multiple tests that may be duplicative                   set forth in section II.A above, OIG’s                to practice the inventions embodied in
                                              (e.g., two or more tests performed using                 concerns regarding Registry                           U.S. Provisional Patent Application. No.
                                              different methodologies that are                         Arrangements are not abated when                      61/250,601, filed October 12, 2009, HHS
                                              intended to provide the same clinical                    those arrangements apply only to data                 Ref. No.: E–158–2009/0–US–01, Titled:
                                              information) or that otherwise are not                   collected from tests performed on non-                ‘‘Granulysin Immunotherapy’’;
                                              reasonable and necessary.                                Federal health care program patients’                 International Application No. PCT/
                                                 • Compensation paid to physicians                     specimens.                                            US2010/052036, filed October 8, 2010,
                                              pursuant to Registry Arrangements is on                    Finally, because the anti-kickback
                                                                                                                                                             HHS Ref. No.: E–158–2009/0–PCT–02,
                                              a per-patient or other basis that takes                  statute ascribes criminal liability to
                                                                                                                                                             Titled: ‘‘Granulysin Immunotherapy’’;
                                              into account the value or volume of                      parties on both sides of an
                                                                                                                                                             U.S. Patent Application No. 13/501,726,
                                              referrals.                                               impermissible ‘‘kickback’’ arrangement,
                                                                                                                                                             filed April 12, 2012, HHS Ref. No.: E–
                                                 • Compensation paid to physicians                     physicians who enter into Registry
                                                                                                                                                             158–2009/0–US–06, Titled: ‘‘Granulysin
                                              pursuant to Registry Arrangements is                     Arrangements with laboratories also
                                                                                                                                                             Immunotherapy’’, and foreign
                                              not fair market value for the physicians’                may be at risk under the statute.
                                                                                                                                                             equivalents thereof to Orpheden
                                              efforts in collecting and reporting                      III. Conclusion                                       Therapeutics, Inc. (‘‘Orpheden’’), a
                                              patient data.
                                                 • Compensation paid to physicians                        OIG is concerned about the risks that              Delaware corporation doing business
                                              pursuant to Registry Arrangements is                     Specimen Processing Arrangements and                  principally in the state of Illinois. The
                                              not supported by documentation,                          Registry Arrangements pose under the                  patent rights in these inventions have
                                              submitted by the physicians in a timely                  anti-kickback statute. This Special                   been assigned to the United States of
                                              manner, memorializing the physicians’                    Fraud Alert reiterates our longstanding               America.
                                              efforts.                                                 concerns about payments from                             The prospective exclusive evaluation
                                                 • The laboratory offers Registry                      laboratories to physicians in excess of               option license territory may be
                                              Arrangements only for tests (or disease                  the fair market value of the physicians’              worldwide and the field of use may be
                                              states associated with tests) for which it               services and payments that reflect the                limited to the development of 15kD
                                              has obtained patents or that it                          volume or value of referrals of Federal               granulysin as set forth in the Licensed
                                              exclusively performs.                                    health care program business. Should                  Patent Rights for the treatment of human
                                                 • When a test is performed by                         interested parties continue to have                   cancers.
                                              multiple laboratories, the laboratory                    questions about the structure of a                       Upon the expiration or termination of
                                              collects data only from the tests it                     particular Specimen Processing                        the exclusive evaluation option license,
                                              performs.                                                Arrangement or Registry Arrangement,                  Orpheden will have the exclusive right
                                                 • The tests associated with the
tkelley on DSK3SPTVN1PROD with NOTICES




                                                                                                       the OIG Advisory Opinion process                      to execute an exclusive
                                              Registry Arrangement are presented on                    remains available. Information about the              commercialization license which will
                                              the offering laboratory’s requisition in a               process may be found at: http://                      supersede and replace the exclusive
                                              manner that makes it more difficult for                  oig.hhs.gov/faqs/advisory-opinions-                   evaluation option license with no
                                              the ordering physician to make an                        faq.asp.                                              greater field of use and territory than
                                              independent medical necessity decision                      To report suspected fraud involving                granted in the exclusive evaluation
                                              with regard to each test for which the                   Registry Arrangements, Specimen                       option license.


                                         VerDate Mar<15>2010   20:23 Jul 10, 2014   Jkt 232001   PO 00000   Frm 00061   Fmt 4703   Sfmt 4703   E:\FR\FM\11JYN1.SGM   11JYN1
